                                  Evaluation Report 





                SBA's Progress in Complying with the Improper Payments 


                             Elimination and Recovery Act 





April10, 2014                                                    Report Number 14-11
                                 U.S. Small Business Administration 

                                     Office of Inspector General 

                                       Washington, D.C. 20416 



                                                                                FINAL REPORT TRANSMITTAL
                                                                                    REPORT NUMBER 14-11

DATE:           AprillO, 2014

TO:             Tami Perriello, Acting Chief Financial Officer

                James Rivera, Associate Administrator for Disaster Assistance

                Ann Marie Mehlum, Associate Administrator for Capital Access

SUBJECT:        SBA's Progress in Complying with the Improper Payments Elimination and Recovery Act


This report presents the results of our Evaluation of SBA 's Compliance with the Improper Payments
Elimination and Recovery Act (IPERA). Our objectives were to (1) assess the progress the SBA has made
in remediating improper payment-related recommendations, and (2) determine whether the SBA
complied with IPERA using guidelines outlined in OMB' s implementing guidance, Memorandum
M-11-16, Issuance of Revised Parts I and II to Appendix C of OMB Circular A-123.

We conducted this evaluation in accordance with the Council of Inspectors General on Integrity and
Efficiency (CIGIE) Standards for Inspection and Evaluations. Those standards require that we plan and
perform the evaluation to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our objectives. We believe that the evidence obtained provides a
reasonable basis for our conclusions based on our objectives.

We appreciate the courtesies and cooperation of the Offices of the Chief Financial Officer, Capital
Access, and Disaster Assistance during this evaluation. Please direct any questions to me at
(202) 205-6586 or Jeffrey R. Brindle, Director, Information Technology and Financial Management at
(202) 205-7490.
                                                    ***
/sf
Robert A. Westbrooks
Deputy Inspector General
Executive Summary
SBA's Progress in Complying with IPERA 	                                             Report Number 14-11

What the OIG Reviewed                                      of improved controls and process improvements.
                                                           The revised procedures were robust and led to the
                                                           identification of more improper payments during the
This report represents the results of the Office of
                                                           testing process. Contrarily, the need to use less
Inspector General's (OIG) evaluation of the Small
                                                           experienced staff to process applications for
Business Administration's (SBA) compliance with the
                                                           Hurricane Sandy may have attributed to the rate
Improper Payments Elimination and Recovery Act
                                                           increase for Disaster Assistance loan disbursements.
(I PE RA) requirements.
                                                           As such, the improper payment rates increased as
                                                           follows:
Our objectives were to assess the progress the SBA
has made in remediating improper payment-related
                                                           Table 2 Comparison of FY 2013 to FY 2012 Rates
recommendations and determine whether the SBA
                                                           SBA Program or Activity       FV 2013      FV 2012
complied with IPERA reporting requirements, as
specified in OMB's implementing guidance, M-11-16.                                        Rate         Rate
To achieve our objectives we assessed controls the         7(a) loan Guaranty
                                                                                          4.6%i         1.8%
SBA has implemented to address prior year OIG              Approvals
recommendations, and evaluated whether the SBA             Disbursements for Goods        11.6%i        9.6%
addressed required provisions. We also assessed            and Services
SBA's efforts to prevent and reduce improper               Disaster Assistance loan
                                                                                          18.4%i       17.9%
payments, and reviewed the accuracy and                    Disbursements
completeness of improper payment disclosures in
the AFR, as specified in M-11-16. This report does         Consequently, the improper payment estimates
not include any recommendations. See Appendix Ill          increased from $12.5 million to $14.1 million for
for the full text of the Agency's Comments.                Disbursement of Goods and Services; $233.2 million
                                                           to $510.9 million for 7(a) guaranty loan approvals;
What the OIG Found                                         and $91 million to $121.1 million for Disaster
                                                           Assistance loan disbursements.
The SBA continues to make progress in its efforts to
prevent and reduce improper payments. Further,             Notwithstanding these accomplishments, further
the SBA was generally compliant in meeting the             improvement is still needed in the effectiveness and
minimum requirements in accordance with OMB                development of SBA improper payment controls and
guidance. See Table 1 for the GIG's FY 2013 overall        processes for all of the programs or activities we
assessment of each SBA Program or Activity.                reviewed. Specific areas include:


Table 1 The IPERA Evaluation by Program or Activity             •	   completeness of test plans,
SBA Program or Activity                    OIG Overall          •	   quality of corrective action plans, and
                                          Assessment for        •	   sufficiency of improper payment 

                                             FV 2013                 recapturing activities. 

Disbursements for Goods and                        a
Services                                                   The OIG also assessed whether the SBA complied
                                                           with IPERA reporting requirements, as specified in
7(a) loan Guaranty Approvals                       0
                                                           M-11-16. This guidance requires a limited review of
7(a) loan Guaranty Purchases                       a
                                                           controls over Agency reporting.      Our evaluation
504 loan Guaranty Approvals                        0       found that the SBA generally met all the IPERA
Disaster Assistance loan                                   reporting    requirements.          However,    the
                                                   a
Disbursements                                              Disbursements for Goods and Services and Disaster
Legend: 	 0 Implemented   0 Substantial Progress           Assistance Loan programs were not compliant
         a Progress       • No Progress                    because their improper payment rate exceeded the
                                                           10 percent threshold. In addition, Disbursements for
Specifically, the Disbursements for Goods and              Goods and Services, as well as the 7(a) Guaranty
Services, as well as 7(a) loan guaranty approvals          Approvals and Disaster Assistance Loan programs did
continued to make progress through the deployment          not achieve their annual reduction targets.
Table of Contents

Introduction ............................................................................................................................................5 

Background .............................................................................................................................................5 

Results ....................................................................................................................................................7 

   Section 1:         Disbursements for Goods and Services ............................................................................. 7 

   Background ........................................................................................................................................ 7 

   Assessment ofAgency Efforts .............................................................................................................. 7 

          AFR Review .................................................................................................................................. 8 

   Section 2:         Section 7(a) Loan Guaranty Approvals .............................................................................. 9 

   Background ........................................................................................................................................ 9 

   Assessment ofAgency Efforts .............................................................................................................. 9 

          AFR Review ................................................................................................................................ 10 

   Section 3:         Section 7(a) Loan Guaranty Purchases ............................................................................ 10 

   Background ...................................................................................................................................... 10 

   Assessment ofAgency Efforts ............................................................................................................ 11 

          AFR Review ................................................................................................................................ 12 

   Section 4:         Section 504 Loan Guaranty Approvals ............................................................................. 12 

   Backg round ...................................................................................................................................... 12 

   Assessment of Agency Efforts............................................................................................................ 13 

          AFR Review ................................................................................................................................ 13 

   Section 5:         Disaster Assistance Loan Disbursements ......................................................................... 14 

   Backg round ...................................................................................................................................... 14 

   Assessment ofAgency Efforts ............................................................................................................ 14 

          AFR Review ................................................................................................................................ 15 

Appendix 1: Scope and Methodology..................................................................................................... 17 

Appendix II: Status of Open IPIA/IPERA Audit Recommendations.......................................................... 19 

Appendix Ill : Agency's Comm ents ......................................................................................................... 20 





                                                                             4

Introduction
This report represents the results of our evaluation of SBA's compliance with the requirements of the
Improper Payments Elimination and Recovery Act (IPERA or the Act). This Act was enacted on
July 22, 2010, and the Office of Management and Budget (OMB) issued implementing guidance in
Memorandum M-11-16, Issuance of Revised Parts I and II to Appendix C of OMB Circular A-123
(M-11-16). Part II (A) of M-11-16 requires each Office of Inspector General (OIG) to review annually its
Agency's improper payments reporting in the Performance and Accountability Report (PAR) or Agency
Financial Report (AFR).

Our objectives were to (1) assess progress the SBA made in remediating improper payment-related
recommendations, and (2) determine whether the SBA complied with IPERA reporting requirements
using guidelines outlined in OMB's implementing guidance, M-11-16.

Background
The SBA offers and guaranties a variety of loans for very specific purposes. During FY 2013, the SBA
supported more than $29 billion in lending to more than 47,000 companies through the 7(a) and 504
programs; and loan approvals totaling $2,797 million for all disaster activity in FY 2013. The Agency also
disbursed approximately $121.4 million to contractors and vendors for services rendered.

The Improper Payments Information Act of 2002 (I PIA) requires agencies to review and identify those
programs susceptible to significant improper payments; report on the amount and causes of improper
payments; and develop plans for reducing improper payments. Provisions of the IPERA amended the
IPIA by providing alternative improper payments measures and expanding the requirements for
corrective action plans. It also increased the scope of recapture audits for all payments and program
activities in excess of $1 million.

                                1
An "improper payment " is any payment that should not have been made or that was made in an
incorrect amount under statutory, contractual, administrative, or other legally applicable requirements.
Further, the OMB states, " when an Agency's review is unable to discern whether a payment was proper
as a result of insufficient or lack of documentation, this payment must also be considered an improper
payment." Incorrect amounts are overpayments or underpayments made to eligible recipients.
An improper payment also includes any payment made to an ineligible recipient or for an ineligible good
or service or payments for goods or services not received. In addition, according to OMB Circular A-123,
Appendix C, Part I, a payment lacking sufficient documentation is an improper payment.

The IPERA guidance further requires that each OIG annually review its Agency's improper payments
reporting within 120 days of issuing its AFR. In accordance with Part II of M -11-16, the OMB requested
t he Inspector General to evaluate the accuracy and completeness of the Agency's reporting in t he AF R.
The OMB also requested that the OIG evaluate the Agency's performance in reducing and recapturing
improper payments and report on recommendations for actions to further improve the Agency's or
program's performance in reducing improper payments. In doing so, we performed a qualitative
assessment of the Agency's progress in meeting the following criteria:



1
    In accordance wit h Secti on 2(d)(2) of th e IPIA, as amended by t he IPERA.

                                                                    5
       • 	 Overall assessment of Agency efforts- OIG evaluation of Agency efforts to prevent and reduce
           improper payments;
       • 	 Accuracy & completeness of Agency reporting- OIG assessment of internal controls related to
           reported information;
       • 	 Quality of corrective action plans- OIG evaluation whether corrective action plans are robust
           and focused on the appropriate root causes of improper payments; and
       • 	 Performance in reducing/recapturing improper payments- Agency's performance of recapture
           audits.

The OMB further requested the Inspector General to determine whether the Agency was in compliance
with the IPERA. In doing so, the Agency must have, at a minimum, met the following criteria to be in
compliance with IPERA:

       •	  Posted materials-Published a PAR or AFR for the most recent fiscal year and posted that report
           and any accompanying materials required by the OMB on the Agency website;
       • 	 Published estimates for susceptible programs-Published improper payments estimates for all
           programs and activities identified as susceptible to significant improper payments under its risk
           assessment(if required);
       • 	 Annual reduction target met-Published, and has met, annual reduction targets for each
           program assessed to be at risk and measured for improper payments;
       • 	 Reported rate of less than 10 percent-Reported a gross improper payments rate of less than
           10 percent for each program and activity for which an improper payments estimate was
           obtained and published in the PAR or AFR; and
       • 	 Reported recapture information-Reported information on its efforts to recapture improper
           payments.

Prior OIG audits have identified high percentages of disaster and business loans that were made to
borrowers who were ineligible, lacked repayment ability, or did not provide sufficient documentation to
                                      2
justify the approval or disbursement. Those audits further determined that the improper payment
rates reported for these programs were significantly understated.

In 2013, the OIG issued Audit Report 13-13, Evaluation of SBA's Progress in Reducing Improper Payments
in FY 2012, stating that the SBA was generally compliant in meeting the minimum reporting
requirements for IPERA in its FY 2012 AFR. However, our qualitative review of the Agency's efforts to
prevent and reduce improper payments showed that improvement was still needed in the effectiveness
and development of SBA improper payment controls and processes for all areas we reviewed.
The specific areas include the accuracy and completeness of reporting, sufficiency of improper payments
recapturing activities, and quality of corrective action plans.

Nature of Limited or Omitted Information

No information was omitted due to confidentiality or sensitivity, nor were there limitations to
information during this evaluation.



2
    See reports list ed in the Prior Coverage section of this report.



                                                                        6

Results

The following five sections summarize the OIG's (1) assessment of the Agency's accuracy and
completeness of reporting, and performance in reducing and recapturing improper payments and
(2) OIG's review of the Agency's disclosure in the AFR per requirements of M-11-16, by reporting
segment. In addition, we assessed the status of OIG's unresolved prior year audit recommendations,
which focused on the accuracy and completeness of the Agency's reporting, and performance in
reducing and recapturing improper payments. See Appendix II.

Section 1:      Disbursements for Goods and Services
Background

The SBA awards contracts for goods and services to assist in carrying out its mission. The SBA made
3,980 disbursements for goods and services-totaling approximately $121 million-between
April 1, 2012, and March 31, 2013. While the SBA continues to make strides toward improving the
acquisitions process, our recent audit work with SBA's acquisition activities indicates that continuing
challenges exist, including poorly defined requirements and inadequate oversight and monitoring of
contractor performance. These on-going deficiencies resulted in the OIG identifying Acquisition
Management as one of the issues in its Fiscal Year 2014 Report on the Most Serious Management and
Performance Challenges Facing the Small Business Administration. This challenge focuses on the need
for the SBA to effectively manage the acquisition process.

Assessment ofAgency Efforts

The OIG evaluated the Agency's accuracy and completeness of reporting, as well as its performance in
reducing and recapturing improper payments. We determined that the SBA made progress in meeting
IPERA and IPIA requirements.

We found that the Office of Internal Controls personnel within the Office of the Chief Financial Officer
(OCFO) incorporated lessons learned from prior year reviews to perform the testing of disbursements
for goods and services for FY 2013. Specifically, the Office of Internal Controls personnel collaboratively
reviewed and discussed each other's sample items, which resulted in a consistent treatment of all
potential errors. They also vetted their test results with the Acquisitions Director. This improved testing
process may have resulted in previously unreported error conditions and improper payments being
included in the current year test results; consequently, increasing this year's improper payments
rate. The SBA also fully remediated three unresolved, prior year recommendations.

However, further improvement is still needed to fully comply with IPERA and IPIA requirements.
For example, the OIG found that the corrective action plan could be improved. While the plan identified
root causes for improper payments, the plan did not fully include target dates for completed and
implemented corrective actions. We believe that additional actions such as periodic quality assurance
reviews of contract files would improve financial and contract management at the SBA and significantly
decrease the total number of future improper payments.




                                                     7

Due to our limited procedures, we are not providing an assessment as to whether the SBA's reported
improper payments rate of 11.6 percent or $14.1 million is accurate. The results of the OIG's evaluation
of Agency efforts are summarized below.

Table 3 The DIG's Evaluation of Agency Efforts




                                                              a   Progress • No Progress

AFRReview

Our review of the AFR found that the SBA was fully compliant with most IPERA reporting requirements.
However, due to improved testing procedures, previously unidentified error conditions and related
improper payments were included in the current year test results, increasing the improper payments
rate from 9.6 percent in FY 2012 to 11.6 percent in FY 2013. As a result, the SBA did not meet its annual
reduction target. Also, because the FY 2013 rate exceeds 10 percent; the SBA is not compliant with
IPERA. The results of the OIG review are summarized below.

Table 4 The DIG's Review of the AFR
            OMB Reporting Requirement                                            Status at End of 2013
    Posted materials                                                                         0
    Published estimates for susceptible programs                                             0
    Annual reduction target met
    Reported rate of less than 10 percent
                                                                                             ••
 Reported recapture information                                                         0
Legend: 0Comphant w1th IPERA reportmg requirements                      • IPERA reportmg requirements not met

Agency's Comments

The OCFO appreciated the opportunity to respond to the draft report. The OCFO also appreciated the
OIG's acknowledgement of the Agency's progress in meeting IPERA and I PIA requirements as well as
their efforts to fully remediate three prior year recommendations. Management concurred with the
OIG's assessment of Agency efforts related to the disbursements for goods and services and will
continue to work on improving our processes and procedures to reduce improper payments.


DIG's Response

The OIG concurs with the OCFO's comments.




3
    Thi s is a summary of our evaluation results. 

4
    Th e SBA has determin ed that payment recapture audits f or t his program would not be cost effective. 


                                                                  8

Section 2:            Section 7(a) Loan Guaranty Approvals

Background

The Agency's largest lending program, the 7(a) Loan Guaranty program, is the SBA's principal vehicle for
providing small businesses with access to credit that cannot be obtained elsewhere. This program relies
on numerous outside parties (e.g., borrowers, loan agents, and lenders) to complete loan transactions,
with approximately 76 percent of loans being made by lenders to whom the SBA has delegated loan­
making authority. Additionally, the SBA has centralized many loan functions and reduced the number of
staff performing these functions, placing more responsibility on, and giving greater independence to, its
lenders. The OIG continues to identify weaknesses in the SBA's lender oversight processes. Under the
7(a) Loan Guaranty program, the SBA guaranties up to 90 percent of the principal amount of loans made
by banks and other lending institutions to small businesses not able to obtain credit elsewhere.
In FY 2013, the SBA guarantied approximately $11.0 billion in 7(a) loan approvals.

Assessment ofAgency Efforts

The OIG evaluated the Agency's accuracy and completeness of reporting, as well as its performance in
reducing and recapturing improper payments. We determined that the SBA continued to make
substantial progress in meeting IPERA and IPIA requirements.

Specifically, we determined that the SBA developed appropriate testing procedures to assess
7(a) guaranty loan approvals for improper payments in FY 2012. During FY 2013, the SBA continued to
enhance its test procedures. In addition, the SBA increased its sample of 7(a) guaranty loan approvals
from 111 in FY 2012 to 287 in FY 2013. The improved testing procedures and larger sample resulted in
previously unidentified error conditions and related improper payments being included in the current
year test results. As a result, the SBA's improper payments rate increased from 1.8 percent or $233
million in FY 2012 to 4.6 percent or $511 million in FY 2013. Finally, the SBA developed appropriate
corrective action plans to address the root causes of identified improper payments and promote
recovery.

Due to our limited procedures, we are not providing an assessment as to whether the SBA's reported
improper payments rate of 4.6 percent or $511 million is accurate. The results of the OIG's evaluation
of Agency efforts are summarized below.

Table 5 The DIG's Evaluation of Agency Efforts
                                  OMB Criteria                                       Status of End of 2013
    Overall assessment of Agency efforts                                                         [!]

    Accuracy & completeness of Agency reporting
    Performance in reducing/recapturing improper paym ents
    Quality of corrective action plans                                                           0
Legend:      0   Implemented 0 Substantial Progress           a   Progress • No Progress




5
    The SBA has dete rmin ed th at payme nt recapture audits for this progra m would not be cost effective.



                                                                  9
AFRReview

Our review of the AFR found that the SBA was fully compliant with most IPERA reporting requirements.
However, due to improved testing procedures and a larger sample of 7(a) guaranty loan approvals
reviewed, previously unidentified error conditions and related improper payments were included in the
current year test results. The improper payments estimate increased from 1.8 percent or $233 million
in FY 2012 to 4.6 percent or $511 million in FY 2013. As a result, the SBA did not meet its planned
reduction target of 1.5 percent for the program. The results of the OIG review are summarized below.

Table 6 The DIG's Review of the AFR
                OMB Reporting Requirement                            Status at End of 2013
 Posted materials                                                              0
 Published estimates for susceptible programs                                  0
 Annual reduction target met
 Reported rate of less than 10 percent
                                                                               •
                                                                               0
 Reported recapture information                                                0
Legend: 0Compliant with IPERA reporting requirements      • IPERA reporting requirements not met

Agency's Comments

The Office of Capital Access (OCA) appreciated the opportunity to respond to the draft report and values
the OIG's acknowledgement of OCA's efforts in improving testing procedures, updating corrective action
plans to identify root causes of identified improper payments and additional progress towards meeting
the IPERA and IPIA requirements. Management concurred with the OIG's evaluation of the Agency
efforts related to the accuracy and completeness of reporting, as well as its performance in reducing
and recapturing improper payments for 7(a) loan guaranty approvals in FY 2013. The OCA will evaluate
the future annual reduction targets and continue to make progress in reducing and recapturing
improper payments.

DIG's Response

The OIG concurs with the OCA's comments.


Section 3:      Section 7(a) Loan Guaranty Purchases

Background

When a loan goes into default, the SBA will conduct a review of the lender's actions on the loan to
determine whether it is appropriate to pay the lender the guaranty, which the SBA refers to as a
"guaranty purchase." Under SBA regulations, the SBA is released from liability on the guaranty, in whole
or in part, if the lender fails to comply materially with any SBA loan program requirement or does not
make, close, service, or liquidate the loan in a prudent manner. The guaranty purchase review is SBA's
primary control for ensuring lender compliance and preventing improper payments. The OIG's audits
continue to identify weaknesses in the SBA's 7(a) Loan Guaranty Purchase program. In FY 2013, the SBA
purchased approximately $1.2 billion in 7(a) loan guaranties.




                                                   10 

Assessment ofAgency Efforts

The OIG evaluated the Agency's accuracy and completeness of reporting, as well as its performance in
reducing and recapturing improper payments. We determined that the SBA made further progress
during FY 2013 in meeting IPERA and I PIA requirements.

The OIG found that SBA's testing procedures for assessing the purchases of 7(a) loan guaranties were
improved during FY 2013. However, the SBA did not fully address previous OIG recommendations
related to SBA's testing procedures and therefore, the testing procedures continued to be incomplete.
Specifically, the testing procedures did not require a detailed analysis of creditworthiness (including
repayment ability) on early defaulted loans in accordance with SBA Standard Operating Procedures
       6
(SOP). Additionally, the test procedures for SBA Express programs continued to be incomplete and did
                                                                                       7
not require reviews for all areas of improper payments previously noted by the OIG. For example, the
test procedures did not require reviewers to determine whether Express loans complied with SBA
requirements related to repayment ability, IRS tax-verification, and business plans.

During FY 2013, the SBA developed appropriate corrective action plans to address the root causes of
identified improper payments and promote recovery. However, we note that further improvement is
needed in the timely resolution and recovery of large improper payments identified by both the Agency
and the OIG. In addition, the SBA disclosed in the FY 2013 AFR that its improper payment reviews have
indicated that payment recapture audits would be cost effective for 7(a) loan guaranty purchases.
However, the SBA has not formalized the cost-benefit analysis to address the OIG recommendation in
                               8
our previous IPERA evaluation. The Agency had established an October 4, 2013 deadline to complete
its cost-benefit analysis.

Due to our limited procedures, we are not providing an assessment as to whether the SBA's reported
improper payments rate of 1.15 percent or $13.9 million is accurate. The OIG has conducted two
                                                                 9            10
previous audits which assessed the accuracy of the SBA's FY 2008 and FY 2011 improper payment
rates for the 7(a) Loan Guaranty Purchase program. The OIG determined that the estimated improper
payment rate for FY 2011 was as high as 20 percent. As noted above, the SBA has continued to make
progress in identifying and reducing improper payments. However, based on the results of previous OIG
audits, we believe the SBA's estimated improper payments rate of 1.15 percent for FY 2013 for the
7(a) Loan Guaranty Purchase program may be understated. The results of the GIG's evaluation of
Agency efforts are summarized below.




6
    SBA SOP SO 57, l(a) Loan Servicing and Liquidation, M arch 1, 2013.
7
    OIG Audit Report 13-07, The Small Business Administration's Improper Payment Rate for l(a) Guaranty Purchases Remains
     Significantly Underestimated, November 15, 2012.
8
    OIG Audit Report 12-10, SBA Generally M eets IPERA Reporting Guidance but Immediate Attention Is Needed to Prevent and
     Reduce Improper Payments, M arch 15, 2012. Recommendation #6.
9
    OIG Audit Report 9-16, The Small Business Administration's Fiscal Year 20081mproper Payment Rate for the l(A) Guaranty
     Loan Program, July 10, 2009.
10
     OIG Audit Report 13-07, The Small Business Administration's Improper Payment Rate for l(a) Guaranty Purchases Remains
      Significantly Underestimated, November 15, 2012.

                                                               11
Table 7 The OIG's Evaluation of Agency Efforts
                           OMB Criteria                             Status of End of 2013
 Overall assessment of Agency efforts                                         a
 Accuracy & completeness of Agency reporting                                  a
 Performance in reducing/recapturing improper payments                        a
 Quality of corrective action plans                                           0
Legend: 0 Implemented 0 Substantial Progress a Progress • No Progress
AFRReview

Our review of the AFR found that the Agency was fully compliant with IPERA reporting requirements.

Table 8 The OIG's Review of the AFR
             OMB Reporting Requirement                           Status at End of 2013
 Posted materials                                                         0
 Published estimates for susceptible programs                             0
 Annual reduction target met                                              0
 Reported rate of less than 10 percent                                     0
 Reported recapture information                                            0
Legend: 0Compliant with IPERA reporting requirements      • IPERA reporting requirements not met

Agency's Comments

Management concurred with the OIG's evaluation of the Agency efforts related to the accuracy and
completeness of reporting, as well as its performance in reducing and recapturing improper payments
for 7(a) loan guaranty purchases in FY 2013. The OCA will evaluate the future annual reduction targets
and continue to make progress in reducing and recapturing improper payments.

DIG's Response

The OIG concurs with the OCA's comments.


Section 4:       Section 504 Loan Guaranty Approvals

Background

The SBA's 504 Loan Program provides small businesses with long-term, fixed-rate financing for the
purchase of land, buildings, machinery, and other fixed assets. Local economic development
organizations, approved by the SBA, are known as Certified Development Companies (CDCs).
The CDCs package, close, and service these loans, which are funded through a mix of funds from private
sector lenders, proceeds from the sale of SBA guarantied debentures, and borrower equity investment.
For the 504 program, the SBA guaranties 100 percent of the principal and interest payments on these
debentures. In FY 2013, the SBA guarantied approximately $6.4 billion in 504 loan approvals.




                                                   12 

Assessment ofAgency Efforts

The OIG evaluated the Agency's accuracy and completeness of reporting, as well as its performance in
reducing and recapturing improper payments. We determined that the SBA continued to make
substantial progress during FY 2013 in meeting IPERA and IPIA requirements. Specifically, the OIG
determined that the SBA developed appropriate corrective action plans to address the root causes of
identified improper payments and promote recovery.

Due to our limited procedures, we are not providing an assessment as to whether the SBA's reported
improper payments rate of 0.54 percent or $34.4 million is accurate. The results of the GIG's evaluation
of Agency efforts are summarized below.

Table 9 The DIG's Evaluation of Agency Efforts
                           OMB Criteria                                     Status at End of 2013
 Overall assessment of Agency efforts
 Accuracy & completeness of Agency reporting
 Performance in reducing/recapturing improper
 payments
 Quality of corrective action plans
Legend: 0 Implemented 0 Substantial Progress  a Progress • No Progress
AFRReview

Our review of the AFR found that the SBA was fully compliant with IPERA reporting requirements.

Table 10 The DIG's Review of the AFR
                 OMB Reporting Requirement                                       Status at End of 2013
 Posted materials                                                                        0
 Published estimates for susceptible programs                                            0
 Annual reduction target met                                                             0
 Reported rate of less than 10 percent                                                   0
 Reported recapture information                                                          0
Legend: 0Compliant with IPERA reporting requirements                    • IPERA reporting requirements not met

Agency's Comments

Management concurred with the GIG's evaluation of the Agency efforts related to the accuracy and
completeness of reporting, as well as its performance in reducing and recapturing improper payments
for 504 loan guaranty approvals in FY 2013. The OCA will evaluate the future annual reduction targets
and continue to make progress in reducing and recapturing improper payments.

DIG's Response

The OIG concurs with the OCA's comments.




11
     Th e SBA has det ermin ed that payment recapture audits for thi s program would not be cost effective.

                                                                 13 

Section 5:           Disaster Assistance Loan Disbursements
Background

The Disaster Assistance Loan program plays a vital role in the aftermath of disasters by providing long­
term, low-interest loans to affected homeowners, renters, businesses of all sizes, and non-profit
organizations. The SBA offers home and personal property loans, business physical disaster loans, and
economic injury disaster loans. The Disaster Assistance Loan program is particularly vulnerable to fraud
and unnecessary losses because loan transactions are expedited in order to provide quick relief to
disaster victims. In FY 2013, the SBA approved $2.8 billion in Disaster Assistance loans.

Assessment ofAgency Efforts

The OIG evaluated the Agency's accuracy and completeness of reporting, as well as its performance in
reducing and recapturing improper payments. We determined that the SBA continues to make progress
in meeting IPERA and I PIA requirements, but appears to have difficulty in reducing the improper
payment rate to below 10 percent.

Specifically, the SBA did not meet the FY 2013 reduction target of 14 percent. The estimated rate was
18.4 percent, a half percent increase over FY 2012. This occurred despite a robust corrective action plan
in which specific recurring improper payment issues are identified then addressed in several ways to
prevent and detect improper payments. In the FY 2013 sampling plan, SBA's statistician stipulated that
there was a tendency for improper payments to be found in disproportionate numbers in disasters with
large numbers of loan applications. The statistician also noted that improper payments are
predominantly instances of incomplete documentation, which may result from the need to use less
experienced staff to meet the substantial processing demands. Thus, despite extensive efforts to reduce
the improper payment rate, major disasters such as Hurricane Sandy may have impeded the Agency's
ability to do so. Further, the Agency believed that disbursements in the $20,000 to $100,000 range had
a disproportionately large share of improper payments. While small on an unweighted basis, the
improper payments were large on a weighted basis and caused the rate to be higher.

Due to our limited procedures, we are not providing an assessment as to whether the SBA's reported
improper payment rate of 18.4 percent or $121.1 million is accurate. The results of the GIG's evaluation
of Agency efforts are summarized below.

Table 11 The DIG's Evaluation of Agency Efforts
                                OMB Criteria                                    Status of End of 2013
 Overall assessment of Agency efforts                                                       a
 Accuracy & completeness of Agency reporting                                                0
 Performance in reducing/recapturing improper paym ents
 Quality of corrective action plans                                                         0
Legend: 0 Implemented 0 Substantial Progress a Progress • No Progress



12
     The SBA has determined that payment recapture audits for thisprogram would not be cost effective.


                                                              14
AFRReview

Our review of the AFR found that the SBA was fully compliant with most IPERA reporting requirements.
However, our review showed that the SBA reported an 18.4 percent improper payments rate, which
exceeded the 10 percent level necessary to comply with IPERA requirements. Further, it did not meet
the reduction target of 14 percent set by the SBA for FY 2013. The results of the OIG's review of the AFR
are shown below.

Table 12 The DIG's Review of the AFR
            OMB Reporting Requirement                            Status at End of 2013
 Posted materials                                                         0
 Published estimates for susceptible programs                             0
 Annual reduction target met
 Reported rate of less than 10 percent
                                                                          ••
 Reported recapture information                                            0
Legend: 0Compliant with IPERA reporting requirements      • IPERA reporting requirements not met

Agency's Comments

Management offered no comment or suggested changes to the draft report.




                                                   15 

Agency's Comments and Office of Inspector General's Response


On March 26, 2014, we provided a draft copy of this report to the responsible Agency officials for
comment. On April 4, 2014, the Office of Inspector General received a coordinated response where
management emphasized its commitment to the successful implementation of IPERA. We incorporated
management's comments and OIG's evaluation in the detailed results. The SBA's formal comments are
included in their entirety in Appendix Ill.




                                                   16 

Appendix 1: Scope and Methodology

To perform the evaluation, our scope included an assessment of improper payments the SBA reported
for Section 7(a) loan guaranty approvals, Section 7(a) loan guaranty purchases, Section 504 loan
guaranty approvals, Disaster Assistance loan disbursements, and disbursements for goods and services.
In FY 2012, the OMB waived the requirement for the SBA to report on improper payments for the Small
Business Investment Company program.

To achieve our objectives we assessed controls the SBA has implemented to address prior year OIG
recommendations, and evaluated whether the SBA addressed required provisions. More specifically, we
interviewed SBA officials, and reviewed SBA documentation and plans to assess compliance with
identified controls and IPERA provisions. We also assessed records and other documents obtained from
SBA officials. We further assessed the Agency's efforts to prevent and reduce improper payments,
and reviewed the completeness of improper payment disclosures in the AFR, as specified in OMB
guidance. Moreover, we assessed progress the Agency had made against the baseline we established in
2011. We did not test or provide an assessment as to whether the reported improper payment rates
were accurate.

We conducted this evaluation between September 26, 2013, and February 22, 2014, in accordance with
the Council of Inspectors General on Integrity and Efficiency (CIGIE) Standards for Inspection and
Evaluations. Those standards require that we plan and perform the evaluation to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
objectives. We believe that the evidence obtained provides a reasonable basis for our conclusions
based on our objectives.

Use of Computer-Processed Data

We relied on the data prepared by the SBA program offices that was generated from the Disaster Credit
Management System (DCMS), Joint Accounting and Administrative Management System (JAAMS), and
Electronic Loan Information Processing System (ELIPS). We believe the information is reliable for the
purposes of this audit.

Prior Coverage


Small Business Administration-Office of Inspector General Repor ts

    Purchase Reviews Allowed $4.6 Million in Improper Payments on l(a) Recovery Act Loans,
    Report 13-16R, issued June 14, 2013.

    Evaluation of SBA's Progress in Reducing Improper Payments in FY 2012, Report 13-13, issued
    March 14, 2013.

    The Small Business Administration's Improper Payment Rate for l(a) Guaranty Purchases
    Remains Significantly Understated, Report 13-07, issued November 15, 2012.

    A Detailed Repaymen t Ability Analysis is Needed on High-Dollar Early-Defaulted Loans to Preven t
    Future Improper Payments, Report 12-18, issued August 16, 2012.


                                                   17 

High-Dollar Early-Defaulted Loans Require an Increased Degree of Scrutiny and Improved Quality
Control at the National Guaranty Purchase Center, Report 12-11R, issued March 23, 2012.

SBA Generally Meets IPERA Reporting Guidance but Immediate Attention Is Needed to Prevent
and Reduce Improper Payments, Report 12-10, issued March 15, 2012.

Origination and Closing Deficiencies Identified In l(a) Recovery Act Loan Approvals,
ROM 11-07, issued September 30, 2011.

Material Deficiencies Identified in Five l(a) Recovery Act Loans Resulted in $2.7 Million of Questioned
Costs, ROM 11-06, issued August 25, 2011.

Banco Popular Did Not Adequately Assess Borrower Repayment Ability When Originating Huntington
Learning Center Franchise Loans, Report 11-16, issued July 13, 2011.

America's Recovery Capital Loans Were Not Originated and Closed In Accordance With SBA's Policies
and Procedures, ROM 11-03, issued March 2, 2011.

Material Deficiencies Identified in Early-Defaulted and Early-Problem Recovery Act Loans,
ROM 10-19, issued September 24, 2010.

SBA's Management of the Backlog of Post-Purchase Reviews at the National Guaranty
Purchase Center, Report 9-18, issued August 25, 2009.

The Small Business Administration's Fiscal Year 2008 Improper Payment Rate for the l(a)
Guaranty Loan Program, Report 9-16, issued July 10, 2009.




                                                18 

 Appendix II: Status of Open IPIA/IPERA Audit Recommendations

Audit Report No., Title, Date       Recommendation                             Decision Date           Action
                                                                                                        Date
12-10, SBA Generally Meets          04 Require loan officers to                   5/15/12          1/31/14
IPERA Reporting                     thoroughly evaluate creditworthiness
Guidance but Immediate              (including repayment ability) on early
Attention Is                        default loans during both guaranty
Needed to Prevent and Reduce        purchase and improper payment
Improper Poyments, dated            reviews.
3/15/12

Recommendations for Credit          06 Upon completing the revised                9/26/12          10/4/13
Programs in this report were        improper payment rate projection for
addressed to the Associate          7(a) purchases, conduct a detailed
Administrator for Capital Access    and objective cost/benefit analysis
                                    for payment recapture audits of 7(a)
                                    purchases.

13-07, The Small Business           01 Create a more comprehensive                3/13/13          1/31/14
Administration's Improper           improper payment detection
Payment Rote for l(a) Guaranty      checklist for reviewing 7(a) guaranty
Purchases Remains Significantly     purchases to address the many
Underestimated dated 11/15/12       requirements that reviewers must be
                                    familiar with when conducting
                                    improper payment reviews. See
                                    report for the full recommendation.

Recommendations in this report      02 Develop a procedure for                    11/4/13              4/1/14
were addressed to the Director,     monitoring the effectiveness of the
Office of Financial Programs        checklist for detecting improper
Operations                          payments.

                                    10 Seek recovery of $1,106,116, less
                                    subsequent liquidation recoveries,
                                    from American Business Lending, Inc.
                                    for loan number [FOIA Ex. 4]to
                                    [FOIA Ex. 4]
                                    [FOIA Ex. 4]

                                    12 Seek recovery of $714,444, less
                                    subsequent liquidation recoveries,
                                    from Community South Bank for loan
                                    number[FOIA Ex. 4]to[FOIA Ex. 4]
                                    [FOIA Ex. 4]

 There were no open recommendations for Disbursements for Goods and Services or Disaster Assistance.


                                                      19
Appendix III: Agency's Comments



                                             U.S. SMALL BUSINESS ADMINISTRATION
                                                     WASHINGTON, D.C. 20416




To: 	      Robert Westbrooks
           Deputy Inspector General

Through: 	 Sara D. Lipscomb
           General Counsel

From: 	    Tami Perriello
           Acting, Chief Financial Officer
           Office of the Chief Financial Officer

           Ann Marie Mehlum 

           Associate Administrator 

           Office of Capital Access 


           James E. Rivera 

           Associate Administrator 

           Office of Disaster Assistance 


Subject: 	 Agency Response to SBA's Progress in Complying with the Improper Payments
           Elimination and Recovery Act

I. OCFO Response

The Office of the Chief Financial Officer (OCFO) appreciates the opportunity to respond to the
draft report "SBA's Progress in Complying with the Improper Payments Elimination and
Recovery Act." We also appreciate the OIG's acknowledgement of the agency's progress in
meeting IPERA and IPIA requirements as well as our efforts to fully remediate three prior year
recommendations. OCFO concurs with the OIG's assessment of agency efforts related to the
disbursements for goods and services. We will continue to work on improving our processes
and procedures to reduce improper payments.




                                                   20 

II. OCA Response

The Office of Capital Access (OCA) appreciates the opportunity to respond to the draft report
and values the GIG's acknowledgement of OCA's efforts in improving testing procedures,
updating corrective action plans to identify root causes of identified improper payments and
additional progress towards meeting the IPERA and IPIA requirements. OCA concurs with the
GIG's evaluation of the agency efforts related to the accuracy and completeness of reporting, as
well as its performance in reducing and recapturing improper payments for 7(a) and 504 Loan
Guaranty Approvals and 7(a) Loan Guaranty Purchases in Fiscal Year (FY) 2013. OCA will
evaluate the future annual reduction targets and continue to make progress in reducing and
recapturing improper payments.

Ill. ODA Response

Office of Disaster Assistance (ODA) offers no comment or suggested changes to the GIG's draft
evaluation report.




                                               21 

